IN THE
SUPREME COURT OF THE UNITED STATES
____________
No. ___
HUGH CAMPBELL MCKINNEY,
Applicant,
v.
CHRISTINE WORMUTH, IN HER OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES ARMY,
Respondent.
________________________
APPLICATION TO THE HON. JOHN G. ROBERTS, JR.
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE DISTRICT OF COLUMBIA CIRCUIT
________________________
Pursuant to Supreme Court Rule 13(5), Hugh Campbell McKinney (“Applicant”) hereby
moves for an extension of time of sixty (60) days, to and including December 17, 2021, for the
filing of a petition for writ of certiorari. Unless an extension is granted, the deadline for filing
the petition for certiorari will be October 18, 2021.
In support of this request, Applicant states as follows:
1.

The United States Court of Appeals for the District of Columbia Circuit rendered

its decision, and entered judgment, on July 20, 2021 (Exhibit 1). This Court has jurisdiction
under 28 U.S.C. § 1254(1).
2.

This case concerns the standards for reviewing a decision of a uniformed service’s

board for correction of military records. “The Secretary of a military department may correct
any military record of the Secretary’s department when the Secretary considers it necessary to

1

correct an error or remove an injustice. . . . [S]uch corrections shall be made by the Secretary
acting through boards of civilians of the executive part of that military department.” 10 U.S.C.
§ 1552(a)(1). The board through which the Secretary of the United States Army acts is the Army
Board for Correction of Military Records (“ABCMR”). 32 C.F.R. § 581.3. “The ABCMR
consists of civilians regularly employed in the executive part of the Department of the Army
(DA) who are appointed by the Secretary of the Army and serve on the ABCMR as an additional
duty.” 32 C.F.R. § 581.3(c). Before ABCMR, an “applicant [seeking correction] has the burden
of proving an error or injustice by a preponderance of the evidence.” 32 C.F.R. § 581.3(e)(2).
3.

Applicant, Army Sergeant First Class (Retired) Hugh McKinney, suffered a

traumatic brain injury on October 9, 2005 from the concussive force of an improvised explosive
device that detonated near his Humvee, while he was leading a mounted patrol in Kirkuk, Iraq.
His deployment ended shortly after the incident. Military health assessments thereafter
documented symptoms consistent with mild-to-moderate traumatic brain injury, including
“weakness,” “headaches,” “muscle aches,” “numbness or tingling in hands or feet,” “ringing of
the ears,” “dizziness, fainting, light headedness,” and “difficulty remembering.” These service
records, declarations, and Applicant’s subsequent evaluations and treatments by the Department
of Veterans Affairs (“VA”), and private doctors, link his symptoms—indeed the injury—to the
October 9, 2005 blast.
4.

At the time of this injury, there was no accepted, systematic approach for

evaluating a service member for a mild traumatic brain injury in military operational settings.
Consequentially, award of the Purple Heart decoration1 essentially was foreclosed for such

1

“The [Purple Heart] is awarded to any Service member who is killed or wounded, to an
extent requiring treatment by a medical officer, under [certain circumstances]. The [Purple
Heart] differs from other [personal military decorations] in that an individual is entitled to the
2

concussive injuries that lacked the overt indicia of trauma such as seen with a penetrating
shrapnel wound. Army recognized this and issued clarifying guidance in April 2011 concerning
how a mild TBI could meet the Purple Heart standard. Applicant then sought such recognition
from 2011-2014, acting pro se with the assistance of his wife (necessary because of his injury).
Having made no progress, Applicant engaged undersigned pro bono counsel and appealed to
ABCMR on August 7, 2015. Almost eighteen months later, on January 25, 2017, ABCMR acted
on the request and issued its denial, relying upon a threadbare opinion of an Army physician who
deemed the injury to be “cumulative” of more than one blast exposure and thus ineligible for
award of the Purple Heart. Yet that opinion failed to account for, and directly contradicted,
record evidence, including medical records and a medical opinion from a VA physician
specializing in trauma from blast injuries who stated that the injury was due to the single blast
exposure on October 9, 2005.
5.

Applicant sued the Secretary of the Army, and on cross-motions for summary

judgment, while the district court concluded that “it is a close case,” a single word in the medical
opinion from the VA physician—“expected” rather than “required”—was cited as warranting
affirmance of the Board, the court’s hands being tied by controlling circuit precedent that it
“must evaluate [ABCMR’s] decision ‘under an unusually deferential application of the arbitrary
or capricious standard of the [Administrative Procedure Act (“APA”)].’” McKinney v. Esper,
No. 18-cv-371 (TSC), 2020 U.S. Dist. LEXIS 92401 (D.D.C. May 26, 2020), at *5-9.
6.

The D.C. Circuit affirmed, its hands also being tied: “[W]e are required to review

the Army’s decision under a deferential standard.” Exhibit 1 at 2. According to the court of appeals,

decoration upon the awarding authority determining that the specified award criteria have been
met.” DoD Manual 1348.33, Volume 3, Manual of Military Decorations and Awards: DoDWide Personal Performance and Valor Decorations (Dec. 21, 2016), at § 3.7(a).
3

Our review of Board decisions involves “an unusually deferential
application of the ‘arbitrary or capricious’ standard.” Kreis v. Sec’y
of the Air Force, 866 F.2d 1508, 1514 (D.C. Cir. 1989). Because of
the Secretary’s broad statutory discretion, “[i]t is simply more
difficult to say that the Secretary has acted arbitrarily if he is
authorized to act ‘when he considers it necessary to correct an error
or remove an injustice.’” Id. (quoting 10 U.S.C. § 1552(a))
(emphasis in original). Moreover, we cannot lose sight of the fact
that “‘[j]udges are not given the task of running the Army,’” so our
review asks only if the Board’s decisionmaking “process was
deficient, not whether [its] decision was correct.” Id. at 1511
(quoting Orloff v. Willoughby, 345 U.S. 83, 93 (1953)) (emphasis
added).
Id. at 7.
7.

The D.C. Circuit’s decision effectively converts the preponderance of the evidence

standard applied to ABCMR proceedings, see 32 C.F.R. § 581.3(e)(2), into a higher burden of proof.
Moreover, the APA is completely silent concerning the “unusually deferential application of the

‘arbitrary or capricious’ standard” mandated by Kreis, 866 F.2d at 1514. Nowhere does the APA
provide for a special category of “arbitrary and capricious” evaluations, under special deference,
for military-related matters. 5 U.S.C. § 706. Yet the court of appeals has established a standard
such that “[p]erhaps only the most egregious decisions may be prevented under such a
deferential standard of review.” Id. at 1515.
8.

According to Cone,
[t]his deferential standard is calculated to ensure that the courts do
not become a forum for appeals by every soldier dissatisfied with
his or her [outcome], a result that would destabilize military
command and take the judiciary far afield of its area of competence.

223 F.3d at 793. But this policy consideration has an utterly chilling effect. There are few
appeals to district courts, let alone to courts of appeals, from the many thousands of decisions of
military corrections boards each year. It needs scarcely to be emphasized that those boards are

4

comprised of civilians, who need not have any legal background, and are not even subject to
oversight by an administrative law judge in the first instance.
9.

Contrary to the opinion of the court of appeals, the APA does not permit an

“unusually deferential application” of the arbitrary and capricious standard to decisions of
military corrections boards. The preponderance of the evidence burden of proof to which
applicants are held is replaced, under this reading, by an “anything goes” approach given that
board decisions effectively are all but irreversible under Kreis and Cone.
10.

Applicant’s pro bono counsel has upcoming commitments in other cases on

behalf of different clients, including a summary determination briefing at the D.C. Circuit,
hearings in state court matters, and preparation of a new complaint to be filed in federal court.
Counsel also has unexpected, upcoming travel due to the deaths of two lifelong friends during
flash flooding from Hurricane Ida last month.
11.

Separately, because Applicant suffers from a traumatic brain injury, attorney-

client communications are challenging and must be made with the assistance and oversight of
Applicant’s caregiver (his wife). Applicant, who lives in Idaho, also has unavailability because
he continues to require medical interventions as a result of his blast injury, including over the
next week when a petition for certiorari otherwise would need to be finalized.
12.

Finally, COVID-19 has created additional professional and personal disruptions

for Applicant and Applicant’s lead counsel, resulting in delays in correspondence, decisionmaking, and the preparation of a petition for certiorari.
WHEREFORE, for the foregoing reasons, Applicant requests that an extension of time to
and including December 17, 2021, be granted within which Applicant may file a petition for writ
of certiorari.

5

Respectfully submitted,

Seth A. Watkins
Counsel of Record
WATKINS LAW & ADVOCACY, PLLC
1455 Pennsylvania Avenue NW, Suite 400
Washington, DC 20004
(202) 355-9421
watkins@wlapllc.com
Counsel for Applicant
October 8, 2021

6

